No. 19-697

 

 

In THE

Supreme Court of the United States

JAMES DWIGHT PAVATT,
Petitioner,
v.

ToMMY SHARP, INTERIM WARDEN,
OKLAHOMA STATE PENITENTIARY,
Respondent.

ON PETITION FOR A WRIT OF CERTIORARI TO THE
UNITED STATES COURT OF APPEALS
FOR THE TENTH CIRCUIT

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I, Thomas G. Saunders, a member of
the bar of this Court, certify that the accompanying Brief for Oklahoma Criminal
Defense Lawyers as Amicus Curiae in Support of Petitioner contains 4,572 words,
excluding the parts of the document that are exempted by Supreme Court Rule 33.1(d).

Executed on December 27, 2019.

VHA A _

THOMAS G. SAUNDERS

WILMER CUTLER PICKERING
HALE AND DORR LLP

1875 Pennsylvania Ave., NW

Washington, DC 20006

(202) 663-6000

thomas.saunders@wilmerhale.com
